<html>
<title> - NOMINATIONS OF CHRISTOPHER P. LU FOR DEPUTY SECRETARY OF LABOR AND PORTIA Y. WU FOR ASSISTANT SECRETARY OF LABOR FOR EMPLOYMENT AND TRAINING</title>
<body><pre>[Senate Hearing 113-683]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 113-683
 
                 NOMINATIONS OF CHRISTOPHER P. LU FOR 
 DEPUTY SECRETARY OF LABOR AND PORTIA Y. WU FOR ASSISTANT SECRETARY OF 
                   LABOR FOR EMPLOYMENT AND TRAINING

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

NOMINATIONS OF CHRISTOPHER P. LU, TO BE DEPUTY SECRETARY; AND PORTIA Y. 
   WU, TO BE ASSISTANT SECRETARY OF LABOR FOR EMPLOYMENT AND TRAINING

                               __________

                           FEBRUARY 11, 2014

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions
                                
                                
                                
                                
                                
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              
                                
                                
                                
                        
                                
                                
                                
                                
                                


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
                              U.S. GOVERNMENT PUBLISHING OFFICE
   86-729 PDF                           WASHINGTON : 2015       
  _________________________________________________________________________________
      For sale by the Superintendent of Documents, U.S. Government Publishing Office,
            Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001
      
      
      
      
      
      
      


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland          LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington               MICHAEL B. ENZI, Wyoming
BERNARD SANDERS (I), Vermont           RICHARD BURR, North Carolina
ROBERT P. CASEY, JR., Pennsylvania     JOHNNY ISAKSON, Georgia
KAY R. HAGAN, North Carolina           RAND PAUL, Kentucky
AL FRANKEN, Minnesota                  ORRIN G. HATCH, Utah
MICHAEL F. BENNET, Colorado            PAT ROBERTS, Kansas
SHELDON WHITEHOUSE, Rhode Island       LISA MURKOWSKI, Alaska
TAMMY BALDWIN, Wisconsin               MARK KIRK, Illinois
CHRISTOPHER S. MURPHY, Connecticut     TIM SCOTT, South Carolina
ELIZABETH WARREN, Massachusetts

                                    
         
                                     
                                     
                                     
                                     
                                       

                      Derek Miller, Staff Director

        Lauren McFerran, Deputy Staff Director and Chief Counsel

               David P. Cleary, Republican Staff Director

                                  (ii)
                                  

  




                            C O N T E N T S

                               __________

                               STATEMENTS

                       TUESDAY, FEBRUARY 11, 2014

                                                                   Page

                           Committee Members

Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Alexander, Hon. Lamar, a U.S. Senator from the State of 
  Tennessee, opening statement...................................     3
Kaine, Hon. Tim, a U.S. Senator from the State of Virginia.......     4
Gabbard, Hon. Tulsi, a U.S. Representative from the State of 
  Hawaii.........................................................     6
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................    17
Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia...    19
Warren, Hon. Elizabeth, a U.S. Senator from the State of 
  Massachusetts..................................................    21
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    23

                               Witnesses

Lu, Christopher P., Arlington, VA................................     8
    Prepared statement...........................................    10
Wu, Portia Y., Washington, DC....................................    11
    Prepared statement...........................................    13

                          Additional Material

Statements, articles, publications, letters, etc.:
    Letters of support...........................................    28

                                 (iii)
                                 
                                 

  


  NOMINATIONS OF CHRISTOPHER P. LU FOR DEPUTY SECRETARY OF LABOR AND 
   PORTIA Y. WU FOR ASSISTANT SECRETARY OF LABOR FOR EMPLOYMENT AND 
                                TRAINING

                              ----------                              


                       TUESDAY, FEBRUARY 11, 2014

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:07 a.m. in 
room SD-430, Dirksen Senate Office Building, Hon. Tom Harkin, 
chairman of the committee, presiding.
    Present: Senators Harkin, Alexander, Casey, Franken, 
Warren, and Isakson.

                  Opening Statement of Senator Harkin

    The Chairman. Good morning. The committee on Health, 
Education, Labor, and Pensions will come to order. I thank 
everyone for being here today.
    The nominations we are here to discuss are critically 
important, both for the Department of Labor and for the 
countless working families across the country who depend on the 
programs, services, and protections provided by the Department 
of Labor.
    As I have said on more than one occasion, of all the 
executive agencies, I believe it is the Department of Labor 
that touches the lives of ordinary working Americans the most 
on a day-to-day basis. The Department of Labor ensures that 
every American receives a fair day's pay for a hard day's work; 
that they can come home from work safely each night. It helps 
ensure that a working mother can stay home to bond with her 
newborn child and still have a job to return to. It helps 
workers who have been laid off, veterans returning from 
military service, young people with disabilities entering the 
workforce, and it helps guarantee that hardworking people who 
have saved all their lives for retirement can enjoy their 
retirement years with security and peace of mind.
    It has been a pleasure to see this critical agency 
revitalized under the Obama administration after years of 
neglect. Enforcement statistics are improving. More workers are 
getting better training so they can find better jobs. Employee 
morale at the agency is improving. In short, the Department of 
Labor is doing what it is supposed to be doing, and doing it 
well, and they know what they are doing is working.
    The Government Accountability Office recently conducted a 
survey of 24 executive branch departments and agencies about 
their use of evidence-based, data-driven decisionmaking, 
basically trying to determine if agencies have good, evidence-
based ways to measure their progress. The Labor Department beat 
all 24 Federal agencies that were part of the survey. I think 
it is safe to say that that would not have been the case a few 
years ago. It is a testament to the hard work of the dedicated 
career staff of the agency and its strong leadership team that 
they have come so far, so fast.
    It is the job of the nominees before us today to build on 
that record. The issues that are facing the Department are 
front and center in our national dialog right now. As we move 
down the road of economic recovery, the Department of Labor 
will play a vital role in determining what kind of recovery we 
have: a recovery that benefits only a select few, or a recovery 
that rebuilds a strong American middle class, where everyone 
who works hard and plays by the rules can build a better life.
    As the official responsible for overseeing the day-to-day 
operations of the Department, the Deputy Secretary of Labor 
will play a key role in helping the Department meet these 
challenges. Our outgoing Deputy Secretary, Seth Harris, built a 
strong record of accomplishments in this position. I know that 
our nominee, Chris Lu, will carry that tradition forward. As 
the former Assistant to the President and Secretary to the 
Cabinet, Mr. Lu brings a unique knowledge of the inner workings 
of the Administration to this position. He knows how agencies 
run, and how they can work together to produce the best 
possible results for the American people. In addition, as a 
longtime congressional staffer, I know that Chris has a deep 
knowledge of Congress and how to effectively work with 
lawmakers, which will also be an asset to the Department.
    As the recovery progresses, putting people back to work in 
good jobs and engaging more of those who have not been in the 
workforce--such as those with disabilities--will remain 
priority No. 1 for the Department. And the Assistant Secretary 
for Employment and Training will be the point person in this 
effort. The Employment and Training Administration is an agency 
within the Department of Labor that has had some real 
accomplishments in recent years and also faced some management 
challenges.
    From 2012 to 2013, programs administered by the Employment 
and Training Administration served 32 million people across 
unemployment, employment, and job training programs. Last year, 
the percentage of workers exiting Department of Labor job 
training programs receiving industry-recognized credentials--
the kind that can lead to good jobs--was the highest in the 
Department's history. That is a success that should be 
applauded.
    Fortunately, President Obama has chosen a strong leader to 
spearhead this effort. Portia Wu is unquestionably a policy 
expert in these areas and she has a deep knowledge of the 
agency, the Administration, and Capitol Hill; the best 
knowledge coming from her service on this committee for a long 
time. I have every confidence that working with the dedicated 
and talented career staff in the Employment and Training 
Administration, Ms. Wu will bring renewed accountability and 
real progress to the Employment and Training Administration.
    I look forward to seeing all that these two talented 
nominees can accomplish, and to seeing the Department of Labor 
make even further progress in the remainder of the Obama 
administration. I thank both Ms. Wu and Mr. Lu for their 
willingness to serve, and look forward to today's discussion.
    I will recognize our Ranking Member, Senator Alexander.

                 Opening Statement of Senator Alexander

    Senator Alexander. Thanks, Mr. Chairman.
    Welcome to Mr. Lu and Ms. Wu, to the Congresswoman and the 
Senator, and to the families of the nominees.
    I think it is fair to say there is probably no committee in 
the Senate where the ideological differences are as split as 
they are on this committee. I mean, we have the most 
conservative Republicans and the most liberal Democrats.
    It is also true that last year in the Senate, no committee 
produced more legislation than ours. And I think the reason for 
that is that Senator Harkin and I, and all of us, look for 
those areas where we can agree on. We especially focus on 
those, and that is the spirit I would like to go forward with.
    There will be some differences of opinion we have, 
hopefully, not too many because we have, on this side of the 
aisle, we have different solutions than minimum wages, and 
ambush elections, and definitions of fiduciary. We are 
concerned about the OSHA silica rule, the OLMS persuader rule, 
the use of guidance to change long standing laws like the 
Davis-Bacon Act. So we will have our discussions about that.
    But an area that I would suggest that we could make some 
real progress on during the time you are in office and the time 
we are here is on workforce training. Every Governor I know is 
focused on it. That is where most of the action is. I mean, you 
cannot really do it from here. Governor Kaine knows that.
    But if a business comes to Tennessee, or to Virginia, or to 
Iowa, or somewhere, the biggest problem they are going to have 
is identifying enough skilled workers to get jobs. At a time 
when we have 10 million unemployed and so many long-term 
unemployed, that needs our attention. We need to create an 
environment in which Governors and the private sector can solve 
that.
    In Tennessee, Governor Haslam has proposed this week that 
community college be free, which would make our State the only 
one to do that, I believe. It is a very smart move, I think, in 
the right direction, because when you add up all the support 
community college students have anyway, like the Pell grant, 
and the low cost of tuition, it does not cost that much more to 
say to the half of the students who are in high school in their 
junior year, ``You can go to college. Do not worry about the 
cost.'' Or to people who are out of work, ``You can go to 
college. Do not worry about the cost.'' So we need to think of 
ways here that we can create an environment in which this can 
happen.
    The bill that we are working on right now is the Workforce 
Investment Act. And Senator Murray and Senator Isakson, at the 
request of Chairman Harkin, have done a lot of work on this. 
The issue is how much to delegate to States?
    I am for delegating more. Our former Democratic Governor, 
Bredesen, who came in as a part of the Bipartisan Policy 
Center, worked on this issue and urged us to get rid of so much 
overhead here in Washington. He said that when he became 
Governor after he got into the 47 programs that we have for 
workforce training, he just threw up his hands and told his 
State cabinet member to do the best he could. We do not want 
that to happen. I mean, that is $147 million every year going 
into Tennessee that could be better spent.
    The President has recognized this in his State of the Union 
Address and he said the Vice President was going to focus on 
it. And that is good, because we have 47 programs and the 
Government Accountability Office has told us that 44 of them 
are duplicative. So we are a long way toward getting a result 
between the House and the Senate on this bill.
    But I would hope that you would weigh in. This is an area 
where we ought to have a common goal, which is, how do we 
create an environment in which those closest to the ground, the 
Governors and the private sector, can do a better job of this 
skills gap, this training gap that needs to be fixed? That is 
not a Republican or a Democratic idea and that is an area that 
you will have a direct say about.
    The one thing that I would ask you to do is to be very 
skeptical of too many rules from Washington on the Governors 
and the private employers as they seek to spend this money in 
an effective way. When the Democratic Governor of our State 
says it is so complex that he threw up his hands, and he was a 
very good Governor, that gets my attention and I hope it gets 
yours as well.
    So, welcome. I look forward to the hearing. I thank the 
chairman for hosting it.
    The Chairman. Thank you, Senator Alexander.
    We have two distinguished guests here today to introduce 
one of our nominees. Normally I say, Senator Kaine, I usually 
recognize our guests from the other side first, but I 
understand you have a very tight schedule. So I will go ahead 
and recognize Senator Kaine, and then you can be excused after 
that for your committee meeting, and I will ask Representative 
Gabbard after that.
    Senator Kaine, welcome.

                       Statement of Senator Kaine

    Senator Kaine. Thank you, Mr. Chairman, and Ranking Member 
Alexander, and committee members. It is a treat to be here 
before the committee to talk for a second about Chris Lu.
    Actually, parenthetically, it is a treat to be here before 
the committee. This is the one committee I really hoped to be 
on that I did not get on. I think there was a determination 
that I would pull down the collective I.Q. of this bunch, and 
so I was assigned to other committee assignments.
    But I am here to say that whatever the meritocratic 
standard that would be applied to any nominee, Chris Lu would 
clear it, and I am thrilled to be here for him.
    This is an important role, and just to pick up on the 
introductory comments of the Chair and Ranking Member. There is 
no more important issue that we are wrestling with economically 
now than the skills of our workforce. And I noticed something 
very interesting in my previous life as a mayor and Governor.
    When I was doing economic development deals as a mayor, the 
deal always hinged upon the benefits and incentive package. 
Then I became lieutenant Governor and Governor, and about the 
time I got into being Governor, I noticed that the negotiation 
over the incentive package really ceased to be the main issue. 
And what became the main issue, again and again, was the 
quality of the workforce. That became the main issue.
    In fact, I even had after a deal was done, a company tell 
me,

          ``You know, we negotiate on the tax incentives. That 
        is all for show. We know what decision we are going to 
        make going in, and we are going to make a decision 
        based on the quality of the workforce. If we can 
        negotiate some tax incentives out of you, more to do 
        the good, but it is the quality of the workforce that 
        drives our decisions these days.''

    That is why this position is so important for Chris Lu. The 
quality of our Nation's workforce and the matching of the 
workforce, the skills with the available jobs, is so key to our 
success. And that is why I am so pleased to support Chris Lu.
    Chris is a Virginian. His family is here. He grew up in 
Montgomery County in Maryland and we kind of coaxed him over, 
and he and his wife, Katie, live in Arlington. His background 
demonstrates sort of in his DNA that he gets this about the 
skills imperative in our economy. His parents were immigrants 
from Taiwan who came to the United States, as so many do, 
because of educational opportunities. And then they stayed here 
after they got their education, and became very, very 
productive in their own communities, including so many of 
Chris' family members have worked as civil servants. They 
believe in the dignity and the power of working as a public 
official, which is so important.
    In 2007, Chris was working here in the Senate for President 
Obama and then began working on the election, and was asked to 
go chair the transition. That transition was a difficult 
administrative job. Much of what Chris would do at DOL is try 
to administer all the programs and administer them to reduce 
overlap, reduce gaps, and streamline everything so that every 
dollar is being used to its maximum advantage. And Chris has 
real expertise in that kind of a complex management 
environment.
    He is very well-educated, obviously, educated here in 
Montgomery County in the DC area, but then onto Princeton and 
Harvard Law School where he was an honors graduate at both 
places. He has worked for all three branches of Government, 
worked in the House with a wonderful colleague, Henry Waxman.
    But I will just conclude and say, again, this issue of our 
skills gap and making sure that more folks receive skills. Some 
of the statistics that the chair cited about workers receiving 
credentials through DOL programs, industry credentials, is a 
positive sign. But we know we have so much more to do.
    What Chris brings is a passion around this particular 
issue, a passion borne of his own life experience to make sure 
that people receive skills, but also the administrative 
expertise to go into a challenging bureaucracy with many 
programs and try to make them more streamlined.
    The President in his State of the Union probably talked as 
much about workforce development as in any State of the Union 
in my memory. And one of the tasks he put on the table for the 
Vice President was taking the different kinds of programs and 
making sure that they are all kind of pulling in the same 
direction. That is something that will be received with 
hosannas by Governors and mayors everywhere, and I cannot think 
of a better person than Chris to play a key role in leading 
that effort.
    Thank you very much.
    The Chairman. Thank you, Senator Kaine. That is a very 
strong supporting statement. Thank you for being here.
    I know you have another committee, so thank you very much. 
Please be excused.
    Representative Gabbard, welcome to this side of the 
Capitol. Welcome to you and please proceed.

                  Statement of Representative Gabbard

    Representative Gabbard. Thank you, Mr. Chairman, Senator 
Alexander, members of the committee. Aloha and good morning.
    It is an honor to be here to introduce my friend, Chris Lu, 
as the nominee for Deputy Secretary of Labor. I have known 
Chris for a while now and have had the opportunity to see 
firsthand, both personally and professionally, the strength of 
his character, his integrity, and his conscious choice, as you 
will see throughout his life, his dedication to public service.
    He is someone who has made his decisions on different jobs. 
He has taken different projects he has taken on, not based on 
title or stature, but really to see where he can use his skills 
to best be effective and make a positive impact on those around 
him.
    You will hear much about the breadth of his experience as 
you have already, but I would just like to highlight a couple 
of areas that I have really been impressed by personally.
    First, as the co-chair of the White House Initiative on 
Asian-Americans and Pacific Islanders, Chris got things done. 
He traveled around the country, listening to people, really 
doing his best to address the diverse kinds of challenges that 
they face. Everything from Southeast Asian fisherman who were 
deeply affected by the Gulf Coast oil spill, doing his best to 
address the poverty that we see in our Nation's Chinatowns, or 
the health and educational disparities that have been faced and 
continue to be an issue for our native Hawaiians, my 
constituents, in the State of Hawaii. He has been committed to 
ensuring that we do our best to make sure that no one is left 
behind.
    Since leaving the White House, Chris has remained engaged 
working with myself and others to make sure that we, as a 
country, are using data, technology, and innovation to harness 
the critical assets that our veterans bring to the table. That 
we are making sure that they have the training that they need 
to fill the positions, that they are employed, and that their 
dedication to service continues to benefit us as a country.
    His legislative experience, no doubt, will serve as an 
asset to the Department of Labor, especially at a time where 
collaboration with Congress is essential for us to get anything 
done. His executive branch experience, working with each 
Federal agency, I think, will serve to enhance the ability to 
improve efficiency and see where there are assets in other 
agencies that can help achieve that common objective of 
creating more opportunity for the American people.
    Most importantly, Chris Lu's tireless commitment to service 
and his laser-like focus on creating opportunity for the people 
that he works for, the American people, from all across the 
country is his greatest qualifier.
    I am really proud to be able to speak in support of his 
nomination and appreciate the opportunity to be here.
    Thank you.
    The Chairman. Thank you very much, Representative Gabbard, 
for being here and for a very strong supporting statement for 
Mr. Lu.
    I know you also have work to do on the House side and you 
can be excused. But I understand it is going to be snowing here 
tomorrow. You cannot go to Hawaii tomorrow, so.
    [Laughter.]
    Rep. Gabbard. I will try to see when I can get a flight 
before the snow.
    The Chairman. You have to be here and suffer with the rest 
of us. Thanks very much.
    Since Ms. Wu is from the District of Columbia, and we do 
not have a Senator or Member of the House, I get the privilege 
of doing the introductory remarks for Portia Wu, and I feel 
somewhat privileged to do this. I was the first candidate for 
President, when I had my short run, some of you may have missed 
it, but that is all right, to come out for full Statehood for 
the District of Columbia. That was 1991, and I still think the 
District should have its proper representation in the U.S. 
House as a full voting member of the House, and we should have 
two Senators from the District of Columbia.
    But since we do not, and since I have had the privilege, 
also, of chairing the appropriations committee on the District 
of Columbia in the past, I have a long relationship with the 
District of Columbia and with the administration of the 
District. And so, I have the privilege now of introducing 
Portia Wu.
    As a long-time DC resident she, as I said, does not have a 
Senator, but we all here on this committee want to claim her as 
our own since she did so much great work here for 7 years on 
this committee, both with Senator Kennedy and with me.
    During her years with this committee, she was the lead 
staffer on several landmark pieces of legislation, the Pension 
Protection Act, the Miner Act, reforms to the Energy Employees 
Occupational Illness Compensation Program, and of course, the 
Lilly Ledbetter Fair Pay Act.
    Her expertise on such a broad range of issues is 
unparalleled. Her strong relationships, again, across party 
lines that help build this committee's reputation as a 
workhorse committee that Senator Alexander spoke about.
    Portia has always been a champion for American working 
families. Her impressive career reflects this passion. Prior to 
working at the Senate, she was an attorney at Bredhoff & 
Kaiser, where she represented workers, labor organizations, and 
pension plans.
    Since leaving this committee, she served as Vice President 
to the National Partnership for Women and Families where she 
advocated for policies to promote fairness in the workplace and 
help working people to meet the dual demands of work and 
family. At the White House Domestic Policy Council, she serves 
as Special Assistant to the President on Labor and Workforce 
Policy.
    What is even more impressive to me than Portia's long list 
of accomplishments is the fact that she has been able to do all 
of this while raising two twin girls. That, to me, is an 
amazing accomplishment.
    Portia, it is great to have you back in your home turf here 
in this committee where you spent so much of your life. We 
could not ask for a better person to fill this billet on 
Assistant Secretary for Employment and Training.
    Welcome.
    I have both your testimonies. They will be made a part of 
the record in their entirety. Mr. Lu, we will start with you. 
Just, if you can sum up in a few moments, and then I will turn 
to Portia Wu.
    Mr. Lu. Thank you, Chairman Harkin, Senator Alexander, and 
distinguished members of the committee.
    If I could, for a moment, I would just like to introduce my 
family behind me. I have my wife, Kathryn Thomson, who is the 
Acting General Counsel of the Department of Transportation and 
is also seeking confirmation by the Senate. I wanted to put a 
plug in.
    [Laughter.]
    The Chairman. To this committee? Not this committee.
    Mr. Lu. My mother, Eileen, is here. My brother, Curtis, and 
my nephew, Sam, are here as well.
    The Chairman. Thank you all for being here.

         STATEMENT OF CHRISTOPHER P. LU, ARLINGTON, VA

    Mr. Lu. Senators, today marks a milestone on my family's 
journey. That journey began in China where my parents were born 
and in Taiwan where they attended grade school.
    In the mid-1950s, my father received a scholarship to study 
at Hiwassee College, which I know Senator Alexander is familiar 
with, in Tennessee. A couple of years later, Senator Isakson, 
my mother had the opportunity to study here at Norman College 
in Georgia. They both got their college degrees here. They 
became U.S. citizens. And because of the opportunities that 
America provided, they were able to build careers. They bought 
a home. They sent their kids to college and they saved for 
their retirement.
    My family has lived the American Dream. It is the same 
dream that has lifted up generations of Americans and every one 
who has lived this dream is proof that in a country founded on 
the ideal of opportunity for all, where you start out does not 
determine where you end up.
    If, as the President says, ``the best measure of 
opportunity is access to a good job,'' then the Department of 
Labor is really the Department of Opportunity. The Department 
trains Americans for the jobs of the 21st century. And the 
Department continues to protect workers' opportunities when 
they enter the workplace to ensure that they receive the wages 
that they are entitled, that their safety and health is 
protected, and that their pensions are secure.
    A well-managed Labor Department is important, not only for 
American workers, but also for our country's long-term 
prosperity.
    The Department's employees are the source of the strength, 
and I have a great appreciation for what they do since, as 
Senator Kaine said, I come from a long line of civil servants.
    My father was a career civil servant at the Department of 
Defense. Three of my aunts and uncles have worked for the 
Federal Government including one aunt who spent 34 years at the 
Bureau of Labor Statistics. And my very first job ever was as a 
GS-2 clerk typist at a Federal laboratory.
    The role of the Deputy Secretary is to be the chief 
operating officer of the Department. And if confirmed, I will 
build upon the work that former Deputy Secretary Seth Harris 
did to promote data-
driven decisionmaking and a robust performance management 
system.
    As Senator Harkin pointed out, in a GAO survey last year, 
the Department of Labor ranked highest among all agencies in 
using data, evidence, and performance management to drive 
decisionmaking.
    Understanding what programs work and what programs do not 
work is critically important in a fiscal climate in which the 
Department has been called upon to do more with less. If 
confirmed, I will continue to build upon these evidence-based 
management practices to ensure that the Department aligns its 
resources to its strategic priorities.
    If confirmed for this job, I will draw upon the management 
experience I have gained during 17 years in the Federal 
Government. From my time here in the Senate and in the House, I 
understand the importance of Federal agencies being attentive 
to the concerns of Congress. I also understand the importance 
of working across party lines and reaching out to a broad range 
of stakeholders to solve difficult problems.
    As the executive director of the 2008 presidential 
transition effort, I helped manage an organization with 1,000 
employees and volunteers to help transition the Federal 
Government within 77 days. And as the White House Cabinet 
Secretary, I was a member of the President's management 
council, which challenged Federal agencies to rethink how 
agencies do their business in the 21st century by eliminating 
wasteful spending, by breaking down silos, and by fostering 
transparency.
    Ultimately, sound management alone means little unless it 
is informed by sound values. If confirmed, I will be guided by 
the ideals of hard work, responsibility, integrity, and 
fairness that my parents instilled in me.
    From an early age, I was taught that if you are fortunate 
to climb the ladder of success, you have an obligation to those 
still climbing. If confirmed as the Deputy Secretary, I will 
work to ensure that the opportunity that I have had and that my 
parents had continues to exist for anyone willing to reach.
    Thank you for allowing me to appear today, and I look 
forward to taking your questions.
    [The prepared statement of Mr. Lu follows:]
                Prepared Statement of Christopher P. Lu
    Chairman Harkin, Senator Alexander, and distinguished members of 
the committee, I am honored to appear before you today as President 
Obama's nominee to serve as the Deputy Secretary of the Department of 
Labor.
    I am pleased to be joined by my wife, Katie Thomson, the Acting 
General Counsel at the Department of Transportation. My mother Eileen 
and my brother Curtis are also here. My father, C.Y. Lu, passed away 
more than 20 years ago, but he is here in spirit, and there's not a day 
that I don't think about the sacrifices he made for me.
    Today marks a milestone in my family's journey. That journey began 
over half a century ago in China, where both of my parents were born, 
and in Taiwan, where they attended grade school. In the mid-1950s, my 
father was fortunate to receive a scholarship to study at a small 
Methodist college in Tennessee. My mother immigrated to this country a 
few years later to attend a Baptist college in Georgia, where she was 
the first Asian student at the school. They both earned their college 
degrees and became U.S. citizens. Because of the opportunities that 
America provided, my parents built careers, bought a home, sent their 
sons to college and law school, and then saved for their retirement.
    My parents' story is not unique. They are some of the millions 
whose experiences exemplify the American Dream. It is the same dream 
that has lifted up generations of Americans and has drawn people from 
around the world to our shores. Everyone who has lived this dream is 
proof that in a country founded on the ideal of opportunity for all, 
where you start out should not determine where you end up. Indeed, 50 
years after my parents first came to this country, I had the privilege 
of walking through the White House gates each morning to serve my 
fellow citizens.
    So it is with great humility that I come before you today, with a 
special connection to the important challenge facing our Nation--how do 
we protect and expand the opportunity that my parents enjoyed for 
future generations of Americans.
    A thriving and expanding middle class is the foundation for 
sustained economic growth and shared prosperity. That's why President 
Obama is committed to building more ladders into the middle class and 
ensuring that everyone who works hard and plays by the rules has a 
chance to climb those ladders.
    If, as the President says, ``the best measure of opportunity is 
access to a good job,'' then the Department of Labor is really the 
Department of Opportunity. The Department trains Americans for the 
careers of the 21st century. And the Department continues to protect 
workers' opportunity once they enter the workplace--ensuring that they 
are paid wages they have earned, that their safety and health are not 
compromised, and that their pensions are secure for retirement. A 
strong, well-managed Labor Department is important not only for working 
families, but also for our country's long-term prosperity.
    If confirmed as Deputy Secretary of Labor, I would be privileged to 
join an organization that has flourished under the dynamic leadership 
of Secretaries Solis and Perez. The Department's success is also a 
testament to the dedication of its 17,000 employees, who fight every 
day for America's working families.
    I have a special appreciation for the employees at the Labor 
Department--and throughout the government--because I come from a long 
line of civil servants. My father was an engineer with the Defense 
Department. Three of my aunts and uncles worked for the Federal 
Government, including one aunt who spent 34 years at the Bureau of 
Labor Statistics. As for me, my very first job was as a GS-2 clerk/
typist at a Federal laboratory.
    The role of the Deputy Secretary is to be the Chief Operating 
Officer, and if confirmed, I will be working under the Secretary's 
direction to manage the day-to-day operations at the Department. I will 
look to build on the legacy of former Deputy Secretary Seth Harris, who 
did remarkable work to promote data-driven decisionmaking and a robust 
performance management system.
    In a recent GAO survey of Federal managers, the Labor Department 
ranked highest among all agencies in using data, evidence, and 
performance management to guide decisionmaking. By rigorously measuring 
and analyzing performance, the Department can demonstrate that it is 
doing a better job today than it did several years ago.
    Understanding what programs work--and what programs do not work--is 
critical in a fiscal climate in which the Department has been called 
upon to do more with less. If I have the privilege of being confirmed 
for this job, I will continue to expand these evidence-based management 
practices to ensure that the Department aligns its resources to its 
strategic priorities. These management practices will allow the 
Department to deliver services that are most impactful to its 
customers--the American people--and just as importantly, demonstrate 
that it is being a good steward of taxpayer dollars.
    If I am confirmed for this job, I will draw upon the management 
experience I have gained during my 17 years working in the Federal 
Government. From my time on Capitol Hill, I understand the importance 
of Federal agencies being responsive to the concerns of Congress. I 
also understand the need to find common ground on difficult issues by 
engaging a wide range of stakeholders. When I served as the Legislative 
Director for then-Senator Obama, we worked in a bipartisan manner with 
Senator Lugar to pass non-proliferation legislation and with Senator 
Coburn to foster transparency and accountability in Federal spending.
    As the executive director of the 2008 presidential transition 
planning effort, I helped manage an organization with 1,000 employees 
and volunteers that had 77 days to prepare for a turnover of the 
Federal Government. I am proud that outside observers have called the 
2008 Presidential transition one of the best-managed transitions in 
history.
    As the White House Cabinet Secretary, I was a member of the 
President's Management Council, which challenged Federal agencies to 
deliver services more efficiently and effectively, and rethink how they 
did business. During the first term, we worked to identify and 
eliminate wasteful spending; expand cross-agency collaboration by 
breaking down silos; make agencies more responsive to customers; 
leverage public-private partnerships to solve problems; and promote 
open government. In the coming years, all of these efforts will be 
important as the Department of Labor tackles one of the most critical 
issues facing our country--how do we better train American workers for 
the careers of the 21st Century.
    Ultimately, sound management alone means little unless it is 
informed by sound values. If I am fortunate to be confirmed for this 
position, I will be guided by the ideals of hard work, responsibility, 
integrity, and fairness that my parents instilled in me. From an early 
age, I was taught that if you have the good fortune of reaching the top 
of the ladder of success, you have an obligation to those still 
climbing.
    As President Obama said recently, ``[E]ach generation has to work 
hard to make sure that dream of opportunity stays alive for the next 
generation.'' My parents were able to come to the United States because 
two small colleges in the South invested in them. I am here today 
because my parents invested in me. If I have the privilege of serving 
as the Deputy Secretary of Labor, I will work to ensure that the 
opportunities I had--and that my parents had--continue to exist for 
anyone willing to reach for them.
    I look forward to working with the members of this committee and 
others in Congress to further this important mission. Thank you again 
for allowing me to appear today.

    The Chairman. Thank you very much, Mr. Lu, a great family 
journey, and a great personal story on your part.
    Ms. Wu, welcome and please proceed.

           STATEMENT OF PORTIA Y. WU, WASHINGTON, DC

    Ms. Wu. Thank you, Mr. Chairman. Thank you for that 
gracious introduction.
    I thank you, and Ranking Member Alexander, and the 
distinguished members of the committee. It is truly an honor to 
be here before you today.
    Before I start, I also want to introduce my family. My 
parents are here, Tom and An-Ya Shih Wu. They--similar to 
Chris' story, actually--they are immigrants from Taiwan and 
they have been fortunate to build a wonderful life in this 
country. It truly has been the land of opportunity for us and 
our family.
    They taught me that hard work and a great education are the 
keys to success in life. And their example also showed me the 
value of public service. They spent most of their career as 
doctors in the Veteran's Administration Hospital in Albany, NY, 
caring for sick veterans who often had nowhere else to turn.
    My parents' support, and my husband, Brad's, have been 
crucial to my career, and I could not have come this far 
without them. I did not bring my daughters because I thought 
two 4-year-olds running around in superhero capes and tutus 
would be a little distracting for the committee. But I am 
thinking of them today, too.
    And of course, Mr. Chairman, I am pleased, very pleased and 
honored to return to this hearing room where I spent so much 
time under you and under the late, great Senator Kennedy. Here 
I saw Senators come together to make life better for working 
people in this country, and that bipartisan example, which 
Senator Alexander alluded to, has inspired me to this day.
    It is an honor to be considered for the role of Assistant 
Secretary of the Employment and Training Administration. And I 
think one reason I feel so strongly about this job is because 
work is really not just about earning a wage. It is about 
dignity. It gives our lives purpose and meaning. That is why 
the loss of a job can be so devastating for a worker and their 
family. And that is why the right job and the right training 
and opportunities is not just about economic security, but also 
about a brighter future. That is why ETA's work is so 
important.
    I believe I bring the vision and experience this job 
requires, helping workers to improve their lives and working 
cooperatively with businesses to find solutions have been 
guiding principles throughout my career, both in Government and 
outside of it.
    As an attorney in private practice, I represented many 
workers whose industries and lives were in transition: hotel 
housekeepers, fire fighters, garment workers, steel mill and 
factory workers. They hold very different jobs. They all face 
the same struggles: lack of opportunity, stagnant wages, job 
loss. And they have the same aspirations: greater opportunity 
and security for themselves and for their families. Wanting to 
help more workers and families access these opportunities led 
me here to work at the HELP committee.
    As a Senate staffer, I worked to make our Nation's laws 
more responsive to the needs of workers and employers. I 
tackled many complex issues, as Senator Harkin referenced, and 
I helped to reform programs that needed changing. I also 
learned the great value of bringing people together across 
party lines to find common ground for action.
    Often that action involved programs within ETA. Senator 
Kennedy's Unemployment Insurance Modernization Act provided 
incentives for States to update their laws to better serve 
Americans looking for work.
    During the immigration reform debates in 2006 and 2007, I 
worked on temporary labor programs, trying to strike the 
balance between meeting the needs of employers and protecting 
the wages and opportunities of American workers.
    In my current position at the White House, I have had the 
privilege to continue working on these vital issues and, in 
particular, on advancing the President's job training and 
skills agenda to build a stronger and more secure middle class. 
This work has included proposals to support community colleges, 
to improve our workforce system, and reform our unemployment 
insurance system so that it supports Americans who are looking 
for work and better connects them to jobs.
    I led the Cross Agency Priority Work Group on job training, 
helping agencies to focus on improved data, transparency, and 
increase accountability.
    Most recently, I was very proud of my work on the 
President's initiative to address long-term unemployment. That 
brought together corporate CEO's, nonprofits, community 
colleges, and the workforce system to help those workers who 
have been hit hardest by the Great Recession to help them get 
back to work.
    As the President said in the State of the Union, the goal 
of our job training system should be to train workers with the 
skills employers need and match them to good jobs that need to 
be filled right now. This goal is one that unites us, it 
benefits workers, businesses, and our economy. This is the 
mission of ETA and if confirmed, one I would be honored to help 
guide.
    [The prepared statement of Ms. Wu follows:]
                   Prepared Statement of Portia Y. Wu
    Thank you Chairman Harkin, Senator Alexander, and distinguished 
members of the committee. It is an honor to appear before you today as 
you consider my nomination. I want to thank President Obama for 
nominating me and for allowing me to serve in the Administration thus 
far, and I thank Secretary Perez for supporting me for this position.
    I also want to acknowledge my family, particularly my parents, Tom 
Wu and An-Ya Shih Wu, who are with me here today. They taught me that 
hard work and a great education are the keys to success in life. Their 
example showed me the value of public service: they spent most of their 
careers as doctors in the Veterans' Administration hospital in Albany, 
NY, caring for sick veterans who often had nowhere else to turn. My 
parents' support, and my husband Brad's, have been crucial to my career 
and I could not have come this far without them.
    And of course, I am pleased to return to this hearing room, where I 
spent many hours working for the committee under Chairman Harkin and 
the late, great Senator Kennedy. Here, I saw Senators come together to 
make life better for working people in this country, and that 
bipartisan example inspires me to this day.
    It's an honor to be considered for the role of Assistant Secretary 
of the Employment and Training Administration (ETA). Work is not just 
about earning a wage; it also is about dignity. It helps give our lives 
purpose and meaning. That is why the loss of a job can be so 
devastating and that is why access to the right job training and 
opportunities means not only economic security but also a brighter 
future for workers and their families. And that is why ETA's work is so 
important.
    I believe I bring the vision and experience this job requires. 
Helping workers to improve their lives and working cooperatively with 
businesses to find solutions have been guiding principles throughout my 
career, both in government and outside it.
    As an attorney in private practice, I represented many workers 
whose industries and lives were in transition: hotel housekeepers, 
firefighters, garment workers, steel mill and factory workers. They 
held very different jobs but they all faced the same struggles--lack of 
opportunity or even job loss. They also had the same aspirations--
greater opportunity and security for themselves and their families. I 
wanted to help more workers and families access those opportunities, 
and that led me here to work at the HELP Committee.
    As a Senate staffer, I worked to make our Nation's laws more 
responsive to the needs of workers and employers. I tackled complex 
issues--mine safety, pensions, worker' compensation--and helped to 
reform programs that needed changing. And I learned the great value of 
bringing people together across party lines to find common ground for 
action.
    Often that action involved programs within ETA: Senator Kennedy's 
Unemployment Insurance Modernization Act provided incentives to States 
to update their laws to better serve Americans looking for work. During 
the immigration reform debates in 2006 and 2007, I worked on temporary 
labor programs, trying to strike the right balance between meeting the 
needs of employers and protecting the wages and opportunities of 
American workers.
    In my current position at the White House, I have had the privilege 
to continue working on these vital issues, advancing the President's 
job training and skills agenda to build a stronger and more secure 
middle class. This work has included proposals to support community 
colleges, to improve our workforce system, and to reform our 
unemployment insurance system so that it supports Americans who are 
looking for work and better connects them to jobs. I led the Cross-
Agency Priority working group on job training, helping agencies to 
focus on improved data and transparency and increased accountability. 
Most recently, I worked on the President's initiative to address long-
term unemployment, which brought together corporate CEOs and non-
profits, community colleges and the workforce system to help those 
workers who have been hit hardest by the Great Recession to get back to 
work.
    As the President said in the State of the Union, the goal of our 
job training system should be to train workers with the skills 
employers need, and match them to good jobs that need to be filled 
right now. This goal is one that unites us, and benefits workers, 
businesses and our economy. This is the mission of ETA's programs, and 
if confirmed, one I would be honored to help guide.

    The Chairman. Thank you very much, Ms. Wu and Mr. Lu, thank 
you very much.
    We will now have a round of 5 minute questions.
    Portia, I will start with you. OK. This comes as no 
surprise to you, but the one thing that I am most interested in 
is getting people with disabilities into the workforce. That is 
a big part of the WIA bill that we are working on right now, 
that is to change the structure of how young people with an IEP 
in school enter the workforce. And to maximize, to the maximum 
extent possible, people with disabilities, young people with 
disabilities entering competitive, integrated employment. The 
workforce participation rate of people with disabilities is 
one-third of that of the general workforce, about 20 percent 
versus 68 to 70 percent.
    This has been very tough to crack over the years, and a lot 
of that had to do with the Supreme Court decisions, the Sutton 
Trilogy in the late 1990s. And then we worked hard here over a 
course of 8 years to pass legislation to overcome that 
decision, those three decisions by the Supreme Court, which we 
did in 2008 and it was signed into law by President Bush; a 
very significant piece of legislation. But businesses were a 
little concerned before that and so was the disability 
community about what their rights and responsibilities were.
    Beginning in about 2009, then, it opened up again and the 
business community has been very good about, again, addressing 
this issue of hiring people with disabilities. Great leaders 
like Walgreens and others have stepped forward to sort of pave 
the way in this.
    We know that adults with disabilities want to work. They 
can work with very modest supports. As the CEO of Walgreens, 
Greg Wasson said, they had one plant we visited where over 50 
percent of their employees were people with disabilities. He 
said, ``I do not do this out of the goodness of my heart.'' He 
said, ``This is my most productive distribution center.'' I 
went up there with some other people to look at that.
    My point being is just generally tell me what your ideas 
are that you might think about doing in Employment and 
Training. I do not know if you have looked at our WIA bill yet 
and what we did with VOC Rehab in terms of voting, working with 
young people with disabilities to get them into summer 
internships, job shadowing, different things so they can try 
different things out before they actually have to enter the 
workforce.
    Give me some thoughts about how you might approach this and 
your views on how we can increase the number of people with 
disabilities working in competitive, integrated employment.
    Ms. Wu. Thank you, Senator. And, of course, thank you for 
your tremendous leadership over the years to advocate for 
individuals with disabilities, and helping them get into 
employment.
    This would be a very high priority for me if I were 
confirmed at ETA. First of all, I care very much about this 
issue. I have had the pleasure of working on some of the 
President's initiatives on this front. The Federal Government 
has really set its goals for hiring individuals with 
disabilities. We are doing a great job in meeting that. Last 
year also we issued regulations encouraging Federal contractors 
to hire individuals with disabilities. We have worked with a 
lot of employer-side organizations on that too because we knew 
encouragement and goals were good, but we had to do it in a way 
that would be workable for businesses and not too burdensome. 
So the Administration has taken some steps. I have been pleased 
to support them and work on them.
    In terms of what can be done at ETA, I think being sure 
that American job centers and the workforce system is serving 
individuals with disabilities is tremendously important. But as 
you flagged, Senator, coordination with other agencies is 
really going to be key here because a lot of the services 
individuals with disabilities are receiving are not coming from 
the Department of Labor. They are coming through vocational 
rehabilitation. They are coming through Medicaid. They are 
coming through SSDI. So I think very close coordination on that 
front is important.
    We actually have a working group in the Administration that 
meets monthly, talking about these issues. I have met with that 
group. I have talked with them, worked on some ideas with them, 
and that is something I will continue to do even from my 
current position.
    Senator, I look forward to any ideas you may have. As the 
WIA bill progresses, we would love to have the opportunity to 
continue to talk with you about that and about these important 
issues.
    Thank you.
    The Chairman. Thank you very much, Ms. Wu. I see my time is 
up. Second round, Mr. Lu, I want to ask you about the Office on 
Child Labor, and trafficking, and how that operates. I will get 
back to that.
    Senator Alexander.
    Senator Alexander. Thanks, Mr. Chairman.
    Mr. Lu, I want to assure you that the fact that your father 
graduated from the University of Tennessee will not interfere 
with my objective assessment of your nomination. We are 
welcome.
    I have one specific question. In 2010, the Department of 
Labor Employee Benefits Security Administration proposed 
regulations regarding the definition of fiduciary under the 
Employment Retirement Income Security Act. And we asked 
Secretary Perez about that when he was here. He said he would 
assess the potential adverse impacts of the rule on low- and 
middle-income Americans and allow public reaction to that if 
they proposed a rule.
    I would ask you the same thing. If you are going to be the 
chief operating officer of the Department, this has created a 
lot of concerns, the proposed rule, about the effect on middle- 
and low-income Americans.
    Will you commit to study those aspects of it and consult 
with us in the development of such a rule?
    Mr. Lu. Thank you, Senator, for that question.
    I certainly share your concerns about the impact of this 
proposed rule on all Americans. I know this is an issue that 
members of the committee, in particular, Senator Harkin has 
been involved on it. How can we do more to protect the 
retirement security? I know Senator Harkin has introduced 
legislation on this.
    With regard to the specific rule----
    Senator Alexander. I am talking about the fiduciary 
definition.
    Mr. Lu. Exactly. With regard to the specific rule, I have 
not been involved in the formulation of this rule, but I----
    Senator Alexander. My question is, will you, if you are 
confirmed, see to it that the Department studies the adverse 
impact of that proposed definition----
    Mr. Lu. Yes.
    Senator Alexander. For fiduciary----
    Mr. Lu. Yes, I will, Senator.
    Senator Alexander. And consult with us.
    Mr. Lu. Absolutely.
    Senator Alexander. That is all I would ask.
    Now let me ask Ms. Wu and both of you, and I will show my 
bias here as a former Governor. Will you--in your effort to 
focus on how we do the best job of creating an environment for 
job training--work closely with the Governors and with the 
States in developing that? And this is why I say that.
    My own view is that that is where the action is. Governors 
are already doing what the President said. They are doing their 
best to try to match workers with jobs. And as I mentioned, our 
Governor is proposing free community college and almost every 
Governor is doing that.
    The thing we seem to agree on, we are spending $9 billion a 
year through the Workforce Investment Act, a total of $12 
billion through 47 programs, including the Workforce Investment 
Act and everybody says it is duplicative. It is not just the 
Government Accountability Office. The President says that and 
he even put the Vice President on the job.
    So you with your experience and your connection in the 
White House, and with the Vice President on the job, who has a 
lot of skill, and with the work that has been done here by 
Senator Isakson and Senator Murray. As you help bring this 
piece of legislation to a conclusion, will you work with people 
like the Bipartisan Policy Center's group of former Governors, 
three Republicans and three Democrats, who have very specific 
recommendations about how to decentralize this program so that 
the Federal Government can create an environment in which 
others can do a better job of fitting skilled workers to jobs. 
Rather than try to impose a whole range of specific, 
overlapping, duplicative programs here over the $12 billion and 
try to do it ourselves from Washington. That is my question.
    Ms. Wu. Thank you, Senator.
    Of course, we would welcome working not only with Members 
of Congress, but with the Governors. I know actually the 
President himself has spoken with the National Governor's 
Association about this. Skills always come up, as you said, 
sir. It is a huge priority.
    I also recognize that the structure of our Workforce 
Investment Act is really about saying States and local 
entities, they are the ones on the ground doing the work, and 
we need to figure out a way to support them, help give them the 
flexibility, also with appropriate Federal Government oversight 
of our funds. So we do want to work on them.
    Senator Alexander. There is a difference here about what 
appropriate regulation is and what the Governors are saying is 
that we have just handcuffed them and we are wasting our money. 
I mean, this is $12 billion on the most crucial issue we have, 
and we have done a lot of good work on this committee. I would 
like to push it more toward the Governors' point of view on 
this. I would just urge you.
    I think you could do more of your best work with Governors 
on this issue than you can with Members of Congress, in all 
respect, because they are the ones who actually have to do it.
    Ms. Wu. We look forward to doing that, sir.
    Senator Alexander. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Alexander. In order, I 
have Senator Casey, Senator Isakson, Senator Warren, and 
Senator Franken.
    Senator Casey.

                       Statement of Senator Casey

    Senator Casey. Thank you, Mr. Chairman.
    I want to thank both of our nominees for your testimony 
today and taking these questions, but in a larger sense, for 
your commitment to public service and that of your families. It 
is a fact of life that when you serve, your family serves with 
you. So we are grateful for that commitment.
    I have two areas of inquiry. One is on black lung cases and 
the backlog which extends to other cases as well, and then to 
the question of Job Corps.
    But Mr. Lu, I would ask you first about black lung. There 
is an old expression in the law of justice delayed is justice 
denied, and I think it applies in this instance. The backlog of 
black lung, longshore, whistleblower, and immigration cases 
pending at the Department of Labor has grown from 4,900 to 
11,000 just since 2006. But at the same time, the number of 
administrative law judges has dropped by some 20 percent to 
only 36 judges. The vacancies include two of four empty seats 
at the DOL offices in Pittsburgh. So obviously, I have a 
particular concern about it.
    I am not sure you are aware, but if you are not, I am sure 
you will be, it takes an average of 429 days for a black lung 
case just to be assigned, and an additional 90 to 120 days 
before the case is even considered.
    So I would ask you two questions. No. 1: are you aware of 
any plans or a strategy to confront that and bring those 
numbers down? And if the answer to that question is no, the 
second question is: what steps can DOL take in the near term to 
confront that?
    Mr. Lu. Senator, thank you for the question, and thank you 
for your leadership on this issue. I know you have fought long 
and hard to ensure that miners get a fair and quick 
adjudication of their claims.
    You have raised this issue with me; your staff has raised 
this issue with me. I believe it is important that we get our 
arms around this. It is certainly difficult in this budgetary 
climate. But if confirmed, I look forward to what steps the 
Department can take internally to fix some of these issues, 
whether it is ensuring that those unfilled positions are filled 
faster, whether it is a better use of technology to manage the 
cases, whether it is looking to other agencies that might have 
similar issues and adopting some of their best practices.
    But I agree with you that justice delayed is justice 
denied, and this should be a priority of this Department.
    Senator Casey. And I say thank you for that, and I 
appreciate you keeping us updated on the efforts undertaken to 
reduce that number.
    This problem is compounded by the reporting that was done 
by ABC News where, I would never thought I would see this kind 
of reporting on national television, where you had in a whole 
range of cases diagnoses that did not match the truth where 
people were denied black lung benefits because of, really 
because of fraud by a doctor and a healthcare institution. So 
it is especially important to at least have the mechanics in 
place to deal with these cases on a much faster basis.
    This backlog issue, of course, extends to the 
administrative law judge seats, and I am going to be sending 
out a letter to the White House to outline that problem as 
well.
    This is really a question for both, but I guess it is more 
directed at Ms. Wu, and I know we talked about this when you 
came to our office on Job Corps. It was, I think, a singular 
failure of the Federal Government when Job Corps had three 
problems. One is the budget shortfall, and that was bad enough. 
Then a freeze on enrollment, and then the third problem, of 
course, is the reduction in available slots for students.
    I think if we are going to give integrity to the commitment 
the administration makes, and the Congress makes to workforce 
development and skills training--all of the things that get us 
to a stronger workforce, and therefore, a strong economy--we 
have got to do, the Department has to do a better job when it 
comes to financial management of Job Corps and the transparency 
that is brought to bear on this.
    Senator Isakson and I conducted a hearing that did a lot of 
probing and pushing at that time to bring about both better 
financial management and better transparency. So I would ask 
you to undertake even greater efforts to bring that about.
    I do not know if there is anything you want to say in the 
remaining seconds we have before we transition?
    Ms. Wu. Senator, I would like to say I am very committed to 
Job Corps. I know this is a high priority for the committee and 
for the Congress, bipartisan priority. I have met with 
contractors. I have spoken at their conference. I met with the 
students who have come through Job Corps.
    And absolutely, when there are problems in the management, 
that hurts not just the program, but it really hurts the 
students for whom these opportunities are incredibly important. 
The education, the job training, it is really a huge chance for 
them. And as I said, opportunity opens doors. That is part of 
what ETA is supposed to do, that is its core mission, and I 
want to be sure Job Corps succeeds in that mission.
    I would love to work with you further. I will work with the 
staff if I am confirmed to ensure sound financial management, 
and also transparency, and an open dialog with the House.
    Senator Casey. Thanks very much.
    The Chairman. Thank you, Senator Casey.
    Senator Isakson.

                      Statement of Senator Isakson

    Senator Isakson. Well, thank you, Mr. Chairman.
    Congratulations to both of you on your nomination. I 
enjoyed our meeting yesterday very much, and both of your 
opening remarks were excellent, but Ms. Wu hit the nail on the 
head.
    You used one phrase that ought to be a sign over the door 
of every Department of Labor Office in the United States of 
America. You said, ``A job gives purpose and meaning to life,'' 
and I think that is an exact quote and I think that is exactly 
correct. And that is one of the things that we have a lot of 
problems with in America right now; the number of people who 
are no longer looking or the number of people who are looking 
and cannot find those jobs.
    As Senator Alexander said, we are this close and I want to 
thank Chairman Harkin for the meeting we had last week. But we 
are this close on the WIA bill of accomplishing what is needed 
to be done for 6 years in the Workforce Investment Act. I know 
from your past experience with Senator Kennedy and the 
committee, you are familiar with what that Act does.
    What will you do in your job of training and administration 
Under Secretary? Share with us what you would do to get 
employers to play a role in workforce development and getting 
America back to work? What employers--what role they should 
play with the Department in getting employees back to work or 
Americans back to work.
    Ms. Lu. Thank you, Senator.
    I really believe that the thought that work gives us all 
purpose is so important, and I commend the committee for its 
work on the WIA reauthorization. I know it has been a long 
road, but the bipartisan leadership of folks here today and 
also, as you mentioned, Senator Murray, Senator Alexander.
    I think it is very important to have employers really be at 
the center of the conversation. If we are not training people 
for jobs that are here today, what are we training them for? 
And that is what both workers and businesses want.
    We know our economy is evolving and changing every day. In 
order to be competitive, America has to have a strong and deep 
skilled workforce. Also, we need a system where workers can 
upgrade their skills or change their skills. As technology 
changes, we need all sorts of skills in new areas that might 
not have been the case 10 years ago.
    So, I think it is very important that employers be at the 
center of that conversation. In the President's recent 
Memorandum, which he issued, he talked about that, about job-
driven training and bringing people to the table.
    If I were confirmed at ETA, I will work with Secretary 
Perez and I hope also with the Department of Commerce. 
Secretary Pritzker has shown tremendous leadership, and she has 
a lot of experience in this area. We really want to have 
businesses at the center of this conversation.
    I believe the work the Department has done in terms of 
business partnerships, and Senator, I know you expressed 
concern about the long-term unemployed. The recent event we did 
at the White House and the partnerships, the funding for 
partnerships will have businesses at the center of that, so 
people are being trained for open jobs.
    Senator Isakson. Well, that is the right answer. That is 
the answer I wanted to hear.
    [Laughter.]
    But one of the things that we do not do a very good job of 
in Government, is we have meetings with corporate executives 
for show at the White House to make a point. But on the ongoing 
day-to-day operational basis of the Government, they are out-
of-sight and out-of-mind.
    So let me suggest that in your position, which you will be 
confirmed for, to get a working group of either Governors, or 
labor secretaries from the States, or employers that are 
representative of mainstream America, and use them as an 
advisory board. Not to fly them up here when you want to make a 
point, but to communicate with them by email and technology on 
ideas that they have to bring more people into the workforce 
and get training more focused on where the jobs are needed.
    I do not think we do a good enough job of engaging the 
employers of America to find jobs for the employees of America. 
And you will be in a perfect position to do that.
    Mr. Lu, you said yesterday that based on your experience, 
you were perfectly--you did not say, these are my words, not 
yours--you were perfectly positioned and trained to be a chief 
operating officer, and I would agree with that from looking at 
your resume.
    Job Corps had lots of problems. Most of those problems are 
because when the cat is away, the mouse will play, and that is 
what happened in Job Corps. There was not good oversight. The 
Department did not do a very good job. We talked about one 
spending incident on a book club where $100,000 had been spent. 
If you ask yourself the question, ``Should that money really 
have been spent by the Department?'' The answer is probably no. 
Where the responsibility falls is on the person that calls 
themselves the chief operating officer of the Department.
    So let me suggest, ask you to comment if you would for a 
moment, what are you going to do on expense oversight and what 
are you going to do on seeing to it that programs are watched 
closely so they are most effectively and efficiently managed?
    Mr. Lu. Senator, during my time, not only here in the 
Senate but also in the White House, one of the priorities was 
to cut wasteful spending.
    As you know, Senator Obama worked with Senator Coburn on a 
bill to better track Federal spending. When I was in the White 
House, we were also involved with OMB on identifying aspects of 
wasteful spending by the Federal Government.
    You and I had a wonderful conversation yesterday about 
press accounts about how the Department of Labor is spending 
its money. I am not aware of that specific incident, but what I 
will tell you is in this budgetary climate, we cannot afford 
any wasteful spending. And whether it is the spending on big 
programs like Job Corps or the issue that you identified, we 
need to make sure that every dollar of taxpayer money is 
furthering the mission of the agency.
    As you and I discussed, this is not only about being good 
stewards of the taxpayer dollar; it is about perception. And 
when those stories come out, it undercuts the overall mission 
of the agency. So I agree with you about the importance of this 
issue.
    Senator Isakson. Well, thank you very much.
    My time is up, Mr. Chairman. Thank you.
    The Chairman. Thank you, Senator Isakson.
    Senator Warren.

                      Statement of Senator Warren

    Senator Warren. Thank you, Mr. Chairman, Ranking Member, 
and thank you Mr. Lu and Ms. Wu for being here with us and for 
your willingness to serve in this capacity, and for all the 
work you have done in public service.
    I wanted to talk a bit more about the Employment and 
Training Administration at the Department of Labor because I 
think it is so important for helping employees get the right 
skills for good jobs and helping employers find those employees 
who have the right skills for the jobs.
    And I wanted to ask, Ms. Wu, particularly about a program, 
YouthBuild, which engages at-risk young people to help them get 
their first job or to enroll in college, giving troubled youth 
an opportunity to learn the skills needed for a good job and 
has proven to be a cost-effective investment in our future.
    Now, we have 11 YouthBuild programs in Massachusetts, but 
they are forced to turn away two out of every three applicants. 
Nationally, these programs are turning away about 19,000 
applicants a year because of inadequate funding. I will work 
with my colleagues to try to get adequate funding for the 
program, but the ETA will be limited to what it is that 
Congress appropriates here.
    So Ms. Wu, I am wondering if you could discuss Federal 
funding, if you could discuss how it can be used to leverage 
private dollars into this system, and how it is we ensure that 
every dollar is being used effectively.
    Ms. Wu. Thank you, Senator.
    YouthBuild is a very important program, as you said. There 
are certain populations for whom they face particular 
challenges in getting good employment, good skills, good jobs. 
And I think that a very important role for the Federal 
Government is to serve those populations.
    In terms of YouthBuild itself, there is a match in the 
program. I understand that can be in-kind or in cash. And, of 
course, that is something we want to encourage. Federal dollars 
leveraging other private investments, I think, is a very 
effective way for the Federal Government to work. As you said, 
we do have some constraints on that, and we often cannot serve 
as many people as we would like without additional funds from 
Congress.
    In terms of sort of the proven efficacy of these programs, 
this has not come up that much today, but I think it is really 
important that as we spend, we continue to evaluate, and I know 
the Department of Labor has been working on an evaluation here. 
And to your point about showing, demonstrating that Federal 
dollars are doing everything we can, I think we can learn a lot 
from those evaluations.
    I understand that it is not complete in this particular 
program's case, but if I am confirmed, when that evaluation 
comes out, I look forward to looking at it and certainly 
working with you and members of the committee to make sure this 
program continues to be effective.
    Senator Warren. Good. Thank you very much, Ms. Wu. I think 
it is just really important.
    Mr. Lu, I was very much struck by your statement and Ms. 
Wu's statement about the importance of public service and what 
it means. But the Department of Labor, or any other part of 
Government, will not be successful without good people to carry 
out its mission.
    Nonetheless, the last few years, we have seen a freeze on 
Federal employee pay, a requirement that Federal employees pay 
more for their pensions, and we have subjected our Federal 
employees to a Government shutdown. Now, I understand that you 
have done some work with the Partnership for Public Service on 
improving the operations of our Government.
    What I wanted to ask is what will you do to ensure that the 
Department of Labor can recruit and retain an effective, 
diverse, strong workforce especially given these constraints?
    Mr. Lu. Thank you, Senator.
    Yes, you are correct. I have worked with the Partnership 
for Public Service, which I know many members of this committee 
are aware of, to encourage more people to come into the Federal 
service to provide greater opportunities for them to grow in 
the Federal service.
    But you are right, the Department of Labor, in a most 
recent survey, finished second to last of all Federal agencies 
in terms of employee morale. I know this is a source of concern 
for Secretary Perez and if confirmed, I look forward to working 
with him on this issue.
    I believe as somebody who has come out of public service 
and has spent his life in public service, that the greatest 
asset we have are the Federal employees. They know best what 
works in the agency and they actually know what does not work 
well. So I want to engage the current leadership from day one 
to get their ideas.
    As you recognized, these are challenging times to be a 
Federal employee with pay freezes and with sequestration. That 
being said, there are agencies that know how to do this well, 
and I want to try to share some best practices with them.
    Senator Warren. Good. Well, I just want to say thank you 
both very much. You both bring a lot of energy and a lot of 
innovative ideas to these jobs, and I hope you will be quickly 
confirmed. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Warren.
    Senator Franken.

                      Statement of Senator Franken

    Senator Franken. Thank you, Mr. Chairman, for this hearing 
and I want to thank the Ranking Member.
    It was good meeting with you both yesterday. We talked when 
we met about the Community College to Career Fund Act and when 
Senator Kaine introduced Mr. Lu, he talked about the quality of 
workforce and brought up the skills gap. And that is something, 
when I talk to my colleagues on the Senate floor, both sides of 
the aisle, every State understands that we have a skills gap in 
this country, and the President talked about it, obviously, in 
his State of the Union address. That we have these jobs 
available to people, but we do not have them skilled up.
    I talked to you about the partnerships that I have seen in 
my State of Minnesota where businesses work with community and 
technical colleges. Very often the businesses will donate 
machinery, expertise to help design the curriculum, and these 
partnerships work very well. People get trained, say, in 
precision machine tooling and get a job. They get a job and 
they maybe have just a credential, maybe the employer sends 
them back. They get a 2-year, end up finishing their 
associate's degree, come back, get sent back to get their 
bachelor's degree, and they do not have any student debt. And 
now they have a great job, a very good, high paying, middle 
class job, and everybody is happy.
    When I go around the State, I talk to the colleges, I talk 
to the businesses, and they all kind of agree that they could 
do this better, and faster, and bigger if they had some help. 
And Senator Alexander talked about working with State 
Governments.
    I would like to, one of the ways I would try to make this 
program work that we have talked about, and I think there is a 
place for it to go--the Trade Adjustment Assistance, Community 
College, and Career Training initiative is expiring. That is 
the TAACCCT initiative. I did not write the acronym, but I 
think it is ta-act.
    [Laughter.]
    So, one of the things, I just want you to work with me. I 
know Ms. Wu, you are going to be working with the Vice 
President, and the Secretary, and Secretary Thomas Perez to try 
to get this going. Mr. Lu, you are going to be the COO.
    I want to find a way that we can do this and do it with 
involving the States and perhaps have the States--the whole 
point of this is the competitive grant. And when you apply for 
the competitive grant, you have to demonstrate that you have 
skin in the game. And the businesses have skin in the game and 
that whether it is donating machines, or curriculum, or 
whatever. But I would like maybe just have the States have skin 
in the game too, and that way, they will be involved. But they 
are the ones who benefit from these skills being provided to 
these students who then can work.
    Can you comment on the benefits of these businesses working 
with the community and technical colleges, and maybe the role 
that the States can play?
    Ms. Wu. Thank you, Senator.
    I think one theme that has arisen today, and we have been 
working on it a lot in the workforce space, is really the 
central role of community colleges, as you recognize, sir.
    We do spend money through the workforce training system, 
but much of what we are doing in terms of training and skills 
in this country is coming from individuals who are choosing to 
go to community college. They are using Pell. Their States are 
stepping up. They are spending their own money. And I 
completely agree, community college is going to play a central 
role.
    I would very much welcome the opportunity to work with 
States, and I think we can work on some innovative ideas to be 
sure that partnership is there. That is the purpose of the 
TAACCCT grants, as well as the Community College to Career 
proposal the President has issued as well. We would welcome 
working with you, Senator, on your legislation on a way to 
bring all those players to the table, because the States are 
the ones that have that vision about what they are doing in 
terms of a broad, economic development, what the regional 
economic development is looking like; that alignment with 
economic development, individual businesses, and what they need 
in terms of credentials and skills, as well as employers, 
employer groups, labor groups, and individual workers, and 
students. We should have all of those people at the table with 
the community colleges, so they can all work together.
    Mr. Lu. Senator, I would simply reinforce what my colleague 
said. When you introduced your bill, you pointed to the stark 
statistic that we spent $2 billion on community colleges, $20 
billion on 4-years colleges, and $60 billion on K-12. As you 
well know, community colleges are at the front line of training 
workers for the 21st century. We need to do more to make that 
investment. And as my colleague indicated, that needs to be a 
collaboration with States, local officials, and the private 
sector as well. So we look forward to working with you on that.
    Senator Franken. Thank you. I just think this is such an 
important model, and every Senator I have talked to on the 
floor recognizes that they are working on this in their State, 
and want to look at this kind of model.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Franken.
    Mr. Lu, as I said, I wanted to just engage a little bit on 
ILab, International Labor Affairs Bureau. A little history: it 
started in 1993 with Bob Reich. In 1994, as the chair of the 
appropriations subcommittee, I started funding it, and it has 
been a long history since then.
    Within that office, within that ILAB, there is the Office 
of Child Labor, Forced Labor, and Human Trafficking. Again, we 
started funding that in 1996. It has been funded ever since. 
One of the most important things they do is every year they put 
out an annual report on the status of the worst forms of child 
labor around the world. I take the time to go down to the 
Department every year for the presentation of that report.
    So that office really has become the pre-eminent authority 
on child labor and forced labor. Well, the pre-eminent 
authority in the United States on forced labor and child labor 
around the globe. So it is not just us who use it; other 
countries are looking at it too. And those that, perhaps, had 
the worst records in the past, looked upon, get that report and 
they begin to change their systems.
    I think it has had a great effect in a number of countries; 
but we have a long way to go. I am not saying that we do not 
have trafficking and forced child labor; we do in a number of 
places. But Secretary Perez, I know, has been a strong 
supporter of this. And again, I just want you to tell me about 
how you see your role in advancing the international labor 
rights standards in reducing exploitative child labor by using 
that entity that you have in the Department of Labor.
    Mr. Lu. Senator, thank you for that question, and thank you 
for your steadfast leadership on this issue.
    As you and I discussed when we met a couple of weeks ago, I 
share your appreciation for what ILAB does, not only in 
highlighting, but combating serious practices like child labor, 
like forced labor, like human trafficking, ensuring that the 
labor protections that are in the Free Trade Agreement are 
actually followed through.
    In the overall scheme of the Department's funding, ILAB is 
relatively small, but it is small and mighty. It has a powerful 
effect, as you point out, in shining a light on some very bad 
practices overseas. And frankly, it is also a reflection of our 
Nation's values.
    If I am confirmed, I will work with you and your staff to 
ensure that ILAB maintains its robust funding.
    The Chairman. We have had some bumps in the road in the 
past, but it is working well now. And as I said, with the 
adoption of ILO Convention 182 in 1999, the adoption of that 
treaty by the Senate, the ratification of it--again, we now, I 
think, have become the leader in this issue as we are in 
disabilities issues around the world. I do not mean to get into 
the convention on the rights of people with disabilities, but I 
hope that will have the same positive outcome as the convention 
on the worst forms of child labor, which we passed in 1999.
    I appreciate your views on ILAB and that office. You are 
right. It is small, but they do a great job, and you have 
really dedicated people, career people working there, and I 
hope and trust that you will give them your support in their 
job.
    One last thing I wanted to cover with you, and it is 
something that has frustrated me a lot. The Department's 
regulatory efforts often seem to encounter inordinate delays, 
both at the Department level, but also at OMB, and I have 
talked to OMB about this.
    Regulations are one of the most important ways that the 
Department can protect working Americans, but the time it takes 
to get, for example, a safety standard from OSHA finalized is 
often inexcusably long.
    What efforts would you undertake, if confirmed, to try to 
address this inordinate delay in regulations?
    Mr. Lu. Senator, as I indicated, if confirmed as the Deputy 
Secretary, my job would be the chief operating officer. I am 
not the lead on policy. That would be the Secretary. That 
direction is set by the President.
    But that being said, as you recognized, the regulatory 
process is managed by the Office of Management and Budget. 
Certainly, you know, I believe that we need to do a fulsome 
consultation with outside stakeholders, not only before we 
propose rules, but during the comment period. I would certainly 
work with your staff to understand your concerns as well. 
Senator Alexander, I suspect you have concerns on the other 
side as well, to ensure that these regulations are well thought 
out and put out after the appropriate consultation.
    The Chairman. I do not mind them being well thought out and 
everything, but after all the hearings, and after meetings and 
discussions, and the regulations are drafted, then there seems 
to be some kind of a blockage there, and it just takes a long 
time to get them done.
    So yes, due diligence, hearings, making sure all sides are 
heard; absolutely, I would never suggest anything other than 
that, but once that is done, it is time to move. Some of it is, 
as I said, is the Department level, which I would expect is the 
operating officer that you would be on top of, some of it is at 
OMB and which, well, that is not in your bailiwick.
    Senator Alexander, anything else?
    Senator Alexander. I had only one question or an 
observation.
    In thinking about the amount of money we spend on community 
colleges, spend $33 billion on Pell grants, and they are 
heavily used at community colleges. And I like the way we spend 
our money for higher education with 93 percent of it follows 
the students to the institutions of their choice, and that 
gives an unemployed worker a chance to take a $5,600 Pell grant 
to the local technical institute or community college, and be a 
part of whatever job training program the community and the 
Governor have put together in order to attract X Industry to 
expand jobs. So there is substantial money spent through Pell 
grants at community colleges.
    Here is my question, though. Often, congressional 
oversight, as each of you knows, is one of our most important 
constitutional responsibilities in the U.S. Senate. If 
confirmed, will you commit to cooperating with congressional 
oversight of the Department of Labor, including document 
requests and to ensuring that the Department works with the 
Inspector General and GAO in any studies or investigations that 
they may undertake?
    Mr. Lu. Senator, yes, if confirmed, I believe that the 
Department should work closely with Congress, should work 
closely with the IG and GAO to respond in a timely matter to 
these requests.
    Senator Alexander. Thank you.
    Ms. Wu.
    Ms. Wu. Of course, Senator, I would be happy to work with 
you in a timely manner.
    Senator Alexander. Thank you.
    That is all, Mr. Chairman.
    The Chairman. Thank you much, Senator Alexander.
    Thank you again very much, both of you, for your 
distinguished careers in the past and for what you will be 
doing in the future.
    The record will remain open for statements for 10 days. I 
have asked that any questions, that other Senators might have, 
be submitted to the committee so we can submit them to the 
nominees by the close of business on Friday.
    I have some letters of support for the nominees, which I 
ask unanimous consent that they be made a part of the hearing 
record.
    [The letters of support referred to may be found in 
additional material.]
    The Chairman. We look forward to marking up our nominees at 
the end of the month, whenever that is. So we hope that we can 
get this expeditiously done, so you both can get to work in a 
hurry. Thank you very much.
    And with that, the committee will stand adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                           Letters of Support

              Asian Pacific American Institute for 
                    Congressional Studies (APAICS),
                                      Washington, DC 20036.

Hon. Tom Harkin, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Dirksen Senate Office Building,
Washington, DC 20510.

Hon. Lamar Alexander, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Dirksen Senate Office Building,
Washington, DC 20510.

    Dear Chairman Harkin and Ranking Member Alexander: The Asian 
Pacific American Institute for Congressional Studies (APAICS) 
enthusiastically supports the nominations of Christopher P. Lu for 
Deputy Secretary of Labor and Portia Y. Wu for Assistant Secretary for 
Employment and Training Administration and encourage the Department of 
Labor of U.S. Senate Committee on Health, Education, Labor, and 
Pensions to approve their nominations.
    APAICS believes that Christopher P. Lu has proved himself as a 
strong leader through his work as the President's Cabinet Secretary. 
First working with then Senator Obama in 2005, Lu has a respected 
record of working for the Federal Government and interacting closely 
with varied constituencies. Portia Y. Wu's entire career has been as an 
advocate. Currently she holds the position as Special Assistant to the 
President for Labor and Workforce Policy at the White House Domestic 
Policy Council. Prior to joining the council she worked with the 
National Partnership for Women and Families and the Senate Health, 
Education, Labor, and Pensions (HELP) Committee.
    Both Christopher P. Lu and Portia Y. Wu have a proven record of 
dedication to improving lives and building communities. They will serve 
as an inspiration to those with whom they work and the aspiring youth 
in this Nation. Both will serve as an example of how diversity is an 
asset to this country and how those with exceptional capacity to serve 
can serve well.
    APAICS applauds the nomination of Christopher P. Lu for Deputy 
Secretary of Labor and Portia Y. Wu for Assistant Secretary for 
Employment and Training Administration in the Department of Labor. We 
urge an aye vote on their nominations.
            Regards,
                                                Floyd Mori,
                                            APAICS President & CEO.
                                 ______
                                 
                 Asian & Pacific Islander American 
                             Health Forum (APIAHF),
                                      Washington, DC 20006,
                                                  February 6, 2014.
Hon. Tom Harkin, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Dirksen Senate Office Building,
Washington, DC 20510.

Hon. Lamar Alexander, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Dirksen Senate Office Building,
Washington, DC 20510.

Re: Letter in Support of the Nomination of Christopher P. Lu for Deputy 
        Secretary of Labor

    Dear Chairman Harkin and Ranking Member Alexander: The Asian & 
Pacific Islander American Health Forum (APIAHF) strongly supports the 
nomination of Christopher P. Lu for Deputy Secretary of Labor. Mr. Lu 
is exceptionally well-qualified, with years of public service and a 
commitment to advancing the economic and social well-being all 
communities, including Asian Americans, Native Hawaiians and Pacific 
Islanders, the Nation's fastest growing communities.
    APIAHF is the oldest and largest health policy organization working 
with Asian American (AA), Native Hawaiian, and Pacific Islander (NHPI) 
communities across the Nation and its Pacific jurisdictions. APIAHF 
influences policy, mobilizes communities, and strengthens programs and 
organizations to improve the health of AAs and NHPIs. With 30-plus 
community-based organizational partners in 20 States and territories, 
APIAHF provides a voice in the Nation's capital for underserved AA and 
NHPI communities and works toward health equity and health justice.
    Mr. Lu is a distinguished leader and an exceptional candidate for 
the position of Deputy Secretary of Labor. He has served as litigator, 
Deputy Chief Counsel for Rep. Waxman and the House Oversight and 
Government Reform committee, advisor, legislative director and oversaw 
President Obama's transition. Mr. Lu's broad range of experiences and 
responsibilities put him well positioned to manage large agency 
operations.
    At APIAHF, we have had the honor of working closely with Mr. Lu in 
his former capacity as Assistant to President Obama and Cabinet 
Secretary, as well as co-chair of the White House Initiative on Asian 
Americans and Pacific Islanders (WHIAAPI). Mr. Lu's service during this 
time demonstrated his dedication, knowledge and commitment to AA and 
NHPI communities.
    As co-chair of the WHIAAPI, Mr. Lu ensured that Federal efforts 
were inclusive and responsive of community needs across multiple 
agencies and sectors from job creation and education to health. He has 
championed and elevated the needs of AAs and NHPIs at the highest 
levels of government.
    Mr. Lu would bring a sincere dedication and commitment to improving 
not only the lives of the Nation's fastest growing communities, but of 
all working families to the Department of Labor. For these reasons, we 
strongly support the confirmation of Mr. Lu to become Deputy Secretary 
of Labor.
            Sincerely,
                                             Kathy Ko Chin,
                                                   President & CEO.
                                 ______
                                 
                 Asian & Pacific Islander American 
                             Health Forum (APIAHF),
                                      Washington, DC 20006,
                                                  February 6, 2014.
Hon. Tom Harkin, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Dirksen Senate Office Building,
Washington, DC 20510.

Hon. Lamar Alexander, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Dirksen Senate Office Building,
Washington, DC 20510.

    Re: Letter in Support of the Nomination of Portia Y. Wu for 
Assistant Secretary of Labor for Employment and Training

    Dear Chairman Harkin and Ranking Member Alexander: On behalf of the 
Asian & Pacific Islander American Health Forum (APIAHF), I offer my 
sincere endorsement of Portia Y. Wu for Assistant Secretary of Labor 
for Employment and Training.
    APIAHF is the oldest and largest health policy organization working 
with Asian American (AA), Native Hawaiian, and Pacific Islander (NHPI) 
communities across the Nation and its Pacific jurisdictions. APIAHF 
influences policy, mobilizes communities, and strengthens programs and 
organizations to improve the health of AAs and NHPIs. With 30-plus 
community-based organizational partners in 20 States and territories, 
APIAHF provides a voice in the Nation's capital for underserved AA and 
NHPI communities and works toward health equity and health justice.
    Ms. Wu is exceptionally qualified to serve at the Department of 
Labor. She has worked to improve labor policy at both the private, 
legislative and administrative levels for over a decade. At the 
National Partnership for Women and Families she oversaw the promotion 
of policies and strategies that brought fairness to the workplace, 
particularly for women and low-income families. During her time at the 
Senate Health, Education, Labor, and Pensions (HELP) Committee, she 
handled complex labor and pension matters. Throughout her career, she 
has championed the needs of American workers and worked to expand 
opportunities in the workplace.
    It is for these reasons we offer our sincere support and urge that 
Portia Y. Wu be confirmed for Assistant Secretary of Labor for 
Employment and Training.
            Sincerely,
                                             Kathy Ko Chin,
                                                   President & CEO.

    [Whereupon, at 11:20 a.m., the hearing was adjourned.]

                                   

      
</pre></body></html>
